Volume 3, No. 2                                                                                      Page 1




                             OIG Fraud                                       United States
                                                                           Nuclear Regulatory


                              Bulletin
                                                                              Commission

                                                                              Office of the
                                                                            Inspector General


    Post-Employment Conflict of Interest                                    NUREG/BR-0272
                                                                            Volume 3, No. 2
    This issue of the "OIG Fraud Bulletin" is to inform Nuclear Regu-
    latory Commission (NRC) employees of the restrictions they may         December 2002
    face in working for an NRC licensee, contractor, or power plant af-
                                                                           OIG Hotline 1-800-233-3497
    ter their Government service has ended. The post-employment re-
    strictions that apply to all former Federal employees are contained
    in the criminal code, at 18 U.S.C. § 207. NRC employees should
    also be aware that another criminal statute prohibits NRC em-
    ployees from seeking employment from anyone while working on
    any NRC matter that could affect that party (18 U.S.C. § 208(a)).        Inside this issue:

                                                                             Post-Employment        1
    The post-employment law does not bar any former Federal em-              Conflict of Interest
    ployee, regardless of rank, from employment with any private or
                                                                             Yucca Mountain         1-2
    public employer after leaving Government service. Only certain           Project
    communications or representations on behalf of anyone, other than
    the Government, to a Federal employee are prohibited. Those re-          Post-Employment        2-4
                                                                             Restrictions
    strictions are discussed on pages 2-4 of this bulletin.
                                                                             Actual Cases on        4-5
    You should direct any personal questions on the post-employment          Post-Employment

    law to a Deputy Counselor in the Office of the General Counsel or        Money Scams and        6
    to a Regional Counsel.                                                   Top Ten Internet
                                                                             Frauds


    Yucca Mountain Project                                                   Telemarketing and
                                                                             Online Shopping
                                                                                                    7


    On July 31, 2002, the Office of Government Ethics (OGE), the             OIG Hotline on the     8
                                                                             Web
    agency with authority to issue guidance on eth-
    ics for all Federal employees, issued an opinion
    on the applicability of the post-employment law
    for all former Federal employees who had
    worked on the proposed high-level radioactive
    waste facility at Yucca Mountain, Nevada.

    In this opinion, the OGE stated that former Federal employees
    who participated personally and substantially in the site charac-
    terization or any other efforts pertaining to the licensing of Yucca
    Mountain are permanently barred from representational activity
    in connection with the license application and

                                                  (continued on page 2)
Page 2                                                                            OIG Fraud Bulletin


 Yucca Mountain Project (continued from page 1)
 the related NRC adjudication. Any former Federal employees who did not participate in any of
 these Yucca Mountain matters but who had official responsibility for pre-licensing matters during
 their last year of Federal service are barred from representational activity in connection with the
 licensing proceedings for 2 years after leaving Federal service. The OGE did mention that the
 post-employment statute does authorize exceptions to the post-employment restrictions, such as
 for scientific or technological information, and recommended that former employees should con-
 sult ethics officials at their previous agency on the applicability of an exception.

 A copy of the OGE opinion can be found on the NRC Ethics Web site under "Articles and Re-
 sources."




 Post-Employment Restrictions
 Since its enactment in 1962, the post-employment statute (18 U.S.C. § 207) and its implementing
 regulations (5 C.F.R. part 2637) remain the primary source of the post-employment restrictions ap-
 plicable to officers and employees of the Executive Branch. Unlike certain other post-employment
 laws, the provisions of section 207 apply to individuals regardless of the executive department or
 agency in which they served while employed by the Government and regardless of the particular
 duties they performed. The following is a general description of the major
 post-employment restrictions. Please consult an NRC ethics advisor if you
 have specific questions about the post-employment law.

 The substantive restrictions have two main parts.

 The first basic prohibition is contained in 18 U.S.C. § 207(a)(1). This pro-
 vides that no former Federal employee may knowingly make, with the in-
 tent to influence, any oral or written communication to or appearance before
 any Federal agency, court, or employee on behalf of any other person, other
 than the United States, in connection with any particular Government matter involving a specific
 party in which the former employee personally and substantially participated as a Federal em-
 ployee.


 Discussion. This is a lifetime restriction that commences upon an employee’s termination from
 Government service. The target of this provision is the former employee who participated in a mat-
 ter while employed by the Government and who later "switches sides" by representing another per-
 son on the same matter before the Government. It does not prohibit self-representation or commu-
 nications that do not intend to influence the Government. This restriction does not bar
 "behind-the-scenes" work, such as advising your private employer about the prohibited matter.
 The prohibition applies to "particular matters involving a specific party," such as licenses, applica-
 tions, contracts, investigations, or enforcement actions that the former employee participated in
 while a Federal employee. It does not apply to general Government matters, such as rulemaking,
 legislation, or the formulation of policy. The post-employment regulations provide some good exam-
 ples of how this restriction applies.
Volume 3, No. 2                                                                                    Page 3


 Post-Employment Restrictions (continued)
 Example 1: A lawyer in the Department of Justice personally works on an antitrust case involving
 Q Company. After leaving the Department, he is asked by Q Company to represent it in that case.
 He may not do so.

 Example 2: A Government employee formulated the policy objectives of an energy conservation
 program. He is not restricted from later representing a university which seeks a grant or contract
 for work emerging from that program.

 Example 3: A Government employee reviews and approves a specific city’s application for Federal
 assistance for a renewal project. After leaving Government service, she may not represent the city
 in relation to the project.

 The second basic prohibition is 18 U.S.C. § 207(a)(2). This provides that, for 2 years after termina-
 tion of Government service, a former Federal employee may not knowingly make, with the intent
 to influence, any communication to or appearance before any Federal agency, court, or employee on
 behalf of any other person, other than the United States, in connection with a particular Govern-
 ment matter involving a specific party which the former employee knows or reasonably should
 know was actually pending under the former employee’s official responsibility within the 1-year
 period prior to termination of Federal employment.

 Discussion. This is a 2-year bar that commences upon an employee’s termination from Govern-
 ment service. It is similar to the lifetime restriction, except that it is of a shorter duration and re-
 quires that the former employee had official responsibility for a specific matter while employed by
 the Government and no personal and substantial participation in that matter while a Federal em-
 ployee. Like the lifetime restriction, it prohibits certain communications or appearances on behalf
 of another person, other than the United States, with intent to influence, to a Federal agency,
 court, or employee. The restriction applies only to a particular matter involving parties that was
 pending under the former employee’s official responsibility during the last year of Federal service.
 The law defines "official responsibility" as the direct administrative or operating authority,
 whether intermediate or final, and either exercisable alone or with others, and either personally or
 through subordinates, to approve, disapprove, or otherwise direct Government action. The
 post-employment regulations contain an example of this restriction.

 Example: Within 2 years after terminating employment, an agency’s former comptroller is asked to
 represent Q Company in a dispute arising under a contract which was in effect during the comp-
 troller’s tenure. The dispute concerns an accounting formula, under the contract, a matter as to
 which a subordinate division of the comptroller’s office was consulted. She may not represent Q
 Company on this matter.

 Former senior employee prohibitions under 18 U.S.C. §§ 207(c) and (f). The post-employment law
 also contains two restrictions that apply only to former Federal employees who were at the SES V
 or above level at the time of their termination.

 First, for 1 year after terminating service in that senior position, no former senior Federal em-
 ployee may knowingly make, with the intent to influence, any communication to or appearance be-
 fore an employee of the agency in which the former employee served in a senior position on behalf
Page 4                                                                                 OIG Fraud Bulletin



Post-Employment Restrictions (continued from page 3)
of anyone, other than the United States, on any particular agency matter for which the former em-
ployee seeks official action.

Discussion. This is a 1-year restriction. The 1-year period is measured from the date when the em-
ployee ceases to be a senior employee, not from the termination of Federal service, unless the two
occur simultaneously. There are two differences between this 1-year bar and the prohibitions that
apply to all former Federal employees: this restriction applies only to the agency that employed the
former senior employee, not to other agencies, and it applies to general agency matters, not just
matters involving parties. The purpose of this 1-year "cooling off" period is to allow for a period of
adjustment to new roles for the former senior employee and the agency served, and to diminish any
appearance that Government decisions might be affected by the improper use by individuals of
their former senior position.

The second restriction is similar, except that it prohibits former senior Federal employees for 1 year
from the termination of their senior service from representing a foreign government or foreign po-
litical party on influencing an official decision of a Federal employee or even "aiding or advising" a
foreign government or political party in its attempt to influence a Federal employee. The following
article contains cases of actual violations that occurred when a former Government employee vio-
lated 18 U.S.C. § 207.

Actual Cases on Post-Employment
                                    was not released until after the     overlooked by Government em-
Former Department of De-                                                 ployees. It includes all particu-
fense (DOD) Official Pays           Deputy IG had left the Govern-
                                    ment, recommended eliminat-          lar matters involving specific
$12,000 to Department of Jus-                                            parties in which the United
tice to Settle Ethics Complaint                       ing part of the
                                                      program that       States is a party or has a direct
                                                      was operated       and substantial interest, that
A former DOD Deputy Inspec-                                              were actually pending under
tor General (IG) paid $12,000                         by a private
                                                      contractor.        the former employee’s official
to the Government to settle al-                                          responsibility during his or her
legations that he violated 18                         The same con-
                                                      tractor hired      last year of employment. This
U.S.C. 207(a)(2), a criminal                                             includes matters that the for-
statute that prohibits former                         the former
                                                      Deputy IG,         mer employee may not have
Government employees from                                                known about, or played in role
representing others to the          who had by then been gone over
                                    1 year, as an independent audi-      in their determination, but, be-
Government on matters that                                               cause of the employee’s posi-
were under the former em-           tor to review the audit report.
                                    On several occasions while act-      tion, were pending under his or
ployee’s official responsibility                                         her official responsibility. As
during his last year in office.     ing on behalf of the contractor,
                                    and within 2 years after leaving     noted above, the statute pro-
The prohibition lasts for 2                                              hibits the former employee
years after the former em-          DOD, the former Deputy IG
                                    contacted DOD employees and          from representing anyone to
ployee leaves office. In this                                            the Government regarding
case, during the former Dep-        criticized the report with the in-
                                    tent to influence the judgment       such matters for a period of 2
uty IG’s last year in office, his                                        years after the employee leaves
audit staff commenced an au-        of the DOD employees. The
                                    statute prohibits such represen-     Government service.
dit of a particular DOD pro-
gram. The audit report, which       tations. This statute is often
Volume
Volume 3,
       3, No.
          No. 2
              2                                                                                  Page 5

Improper Post-Employment Activities by Former Contract Administrator

As a contract administrator       the Government an equitable       sentenced to 6 months of impris-
for the U.S. Air Force, the em-   adjustment claim for approxi-     onment, 6 months of home con-
ployee was responsible for as-    mately $574,613 on one of the     finement, a fine of $2,000, and an
suring compliance with the        contracts. The contract had a     assessment of $200.
terms of two separate con-        basic value of $1.3 million.
struction contracts between       The former Federal employee
the Government and a private      was convicted on two counts of
contractor. After leaving the     violating 18 U.S.C. §207(a)(1),
Government, the contract ad-      a post-employment restriction
ministrator was hired by the      that prohibits former Govern-
same contractor, and he be-       ment employees intending to
came the company’s contract       influence official action from
administrator on the same two     communicating to or appearing
contracts in question. While      before the Government, on be-
representing the contractor,      half of another, in connection
he submitted contract pro-        with particular matters involv-
gress reports to the Govern-      ing specific parties in which
ment in order to ensure that      they participated personally
the company would be com-         and substantially as Govern-
pensated by the Government.       ment employees. Pursuant to
Eventually, the former Fed-       18 U.S.C. §216(a)(2), he was
eral employee submitted to

Former State Department Official Agrees To Settle Post-Employment Dispute
The Department of Justice         tional Business Development.      Bosnia and the State Depart-
and a former State Depart-        On the second day of his new      ment to request support for U.S.
ment employee entered into a      job, the former Government        contracts in Bosnia.
settlement agreement in           employee contacted the U.S.
which the former employee         Embassy in Bosnia about a         The former employee was subject
agreed to pay $10,000 to settle   planned trip to Bosnia 3          to the 1-year restriction in 18 U.
allegations that he violated 18   months later. He sought to        S.C. §207. This restriction pro-
U.S.C. §207. The former em-       enter into a contract with the    hibits certain senior Government
ployee had served in the Gov-     Bosnian gov-                            officials, for 1 year after
ernment as the Deputy for In-     ernment on                              leaving Government service,
ternational Coordination of       behalf of                               from knowingly contacting
the Task Force for Military       Northrop                                employees from their former
Stabilization in the Balkans in   Grumman.
                                                                          Government agency with
1996. In that capacity, he        When the
                                                                          the intent to influence them
oversaw designation of donor      State Depart-
                                                                          in connection with a matter
funds for Bosnia’s purchase of    ment subse-
military equipment and train-     quently told                            on which the former Gov-
ing. He retired from the Gov-     the Bosnian government that             ernment employee seeks of-
ernment on January 2, 1998,       the contract was more than        ficial action on behalf of another.
and began work on January 5,      the country needed, the for-
1998, for Northrop Grumman        mer employee contacted per-
as Vice President for Interna-    sonnel at the U.S. Embassy in
Page 6                                                                                   OIG Fraud Bulletin

   Money Scams*                           *Information provided by the National Consumers League (NCL).

   As many of you may know,           •   Once you are on the               •   Never provide your
   there have been quite a num-           hook, they’ll never let               bank account number
   ber of scams in-                             you go. You will                or other financial infor-
   volving Nigerian                             be asked for a                  mation. This information
   nationals tele-                              never-ending series             will be used to access your
   phoning, faxing,                             of payments for le-             accounts.
   and E-mailing                                gal fees and trans-         •   Don’t agree to travel
   Americans and of-                            fer fees and other              anywhere to meet these
   fering them mil-                             bogus costs.                    people. These individuals
   lions of dollars in exchange for   •   Don’t believe the pic-                avoid coming to the United
   their assistance. According to         tures of the so-called                States because they fear
   the E-mails, all the recipient         treasure. Con artists will            arrest. They try to lure
   had to do to receive this              wrap money around blocks              their victims to other
   money was to help transfer             of wood to make it look like          countries. Victims have
   money, diamonds, or other              a large amount of money.              been robbed and even
   riches to his other bank ac-                                                 murdered when they com-
   count for safekeeping. The         •   Be wary of offers to
                                          send you an “advance”                 plied with such requests.
   purpose of this scam is to get
   money out of your bank ac-             on your commission.               If you receive such a solicita-
   count, and not to put money in         Some con artists use this         tion at work, please contact
   it.                                    ploy to build trust and to        OIG.
                                          get money from your bank.


   The Top 10 Internet Frauds Reported to the National Fraud
   Information Center in 2002* *Information provided by NCL.
   Online Auctions. Items that        never received or misrepre-           Advance Fee Loans. Empty
   were misrepresented or never       sented.                               promises of loans requiring
   received after being sold to the   Internet Access Services.             advance payment of applica-
   highest bidder in a virtual        Charges from Internet Service         tion and other fees.
   auction.                           Providers (ISP) for services          Credit Card Offers. Phone
   General Merchandise. Any-          that were never                               promises of credit
   thing sold on a Web site (not      ordered and/or re-                            cards requiring up
   an auction, and not computer       ceived.                                       front payment of ap-
   software or hardware) that         Information/Adult                             plication and other
   was misrepresented or never        Services. Charges                             fees.
   received.                          to credit cards or                             Business Opportuni-
   Nigerian Money Offers. “Aid”       phone bills for                                ties/Franchises. Ex-
   requests from someone claim-       services never                                 aggerated claims of
   ing to need help to transfer a     provided or misrepresented as         potential profits through in-
   fortune from Africa.               free.                                 vestments in prepackaged
   Computer Equipment/                Work-at-Home Schemes. Kits            businesses or franchises.
   Software. Equipment (not sold      sold with false promises of
   on an auction) that was either     profits.
Volume 3, No. 2                                                                                                Page 7


STOP Calling Me!                                                               *Information provided by NCL.

 We all know how frustrating           rights under State law.                 Once your number is out
 it can be to continually re-   •      Document your “Do Not                   there, it can be shared
 ceive unwanted telephone              Call” requests. Keep a                  widely. Some telemarketers
 calls from strangers trying to        pad and pencil by the                   simply use random dialing
 sell something or people ask-         phone. Ask for the name                 or machines that are pro-
 ing to change your long dis-          and address of the company              grammed to call numbers
 tance service provider. There         on whose behalf the sales-              in sequence. When you an-
 is a way to help stop the ma-         person is                               swer your phone, they have
 jority of these calls.                calling                                 you.
 •   Know your telemarket-             and note                            •   Get off credit marketing
     ing rights. Under Fed-            the date.                               lists. Call 888-567-8688 to
     eral law, you can instruct        If the                                  get off telemarketing lists
     telemarketers to put you          company                                 for pre-approved offers of
     on their “Do Not Call”            calls you                               credit and insurance with
     lists and sue them in             again                                   all of the major credit bu-
     small claims court for            make note of the date of the            reaus (this does not affect
     $500 if they call again.          call.                                   your ability to apply for
     Check with your State or •        Understand that                         credit or insurance).
     local consumer protection         unlisted and unpub-                •    A telemarketer cannot
     agency to find out if you         lished phone numbers                    call again once you’ve
     also have “Do Not Call”           don’t guarantee privacy.                asked them not to.

Some Tips for Shopping Safely Online *Information provided by NCL.
Get the scoop on the seller.        they safeguard your informa-           plete description of the items;
Check complaint records at          tion in transmission and stor-         the total price, including ship-
your State or local consumer        age. Don’t                             ping; the delivery time; war-
protection agency and better        provide sen-                           ranty information; the return
business bureau. Get the            sitive infor-                          policy; and what to do if you
physical address and phone          mation by E-                           have problems.
number to contact the seller        mail.
offline. Look for sellers belong-                                               Ask your credit card issuer
ing to programs that encour-        Use a credit                                about “substitute” or “single-
age good business practices         card. It’s the                              use” credit card numbers. This
and help resolve complaints.        safest way to                               new technology allows you to
                                    pay because                                         use your credit card
Look for clues about security.                     Use common sense when shop-
                                    you have the ping online and any time you trans- without putting your
When you provide payment            legal right to mit sensitive information through real account number
information, the “http” at the      dispute
                                                   the Internet.
                                                                                        online, thereby protect-
beginning of the address bar        charges for goods or services               ing it from abuse by “hackers”
should change to “https” or         that were never ordered,                    or dishonest employees of the
“shttp.” Your browser may           never received, or misrepre-                seller.
show whether the information        sented.
is being encrypted, or scram-                                                   Keep proof handy. Print and
bled, as it is being sent. See      Know the real deal. Get all the        file the receipts in case you
what Web sites say about how        details before you buy: a com-         need proof later.
Page
  U n i t e8d S t a t e s                                                                                 OIG Fraud Bulletin
Nuclear Regulatory
                                                                                                                        Page 8
   Commission

   Office of the
 Inspector General
                                                                    You may now contact the Office of the Inspector General
11545 Rockville Pike
                                                                    (OIG) via the Internet. Simply log onto www.nrc.gov.
Mail Stop T 5D28                                                    Click on Inspector General, click on Hotline, click on the
Rockville, MD 20851
                                                                    Hotline phone symbol, and then click on the online form.
Phone: 301-415-5930                                                 This is a completely anonymous way to inform the OIG
Fax: 301-415-5091
                                                                                                of any fraud, waste, abuse, or
HOTLINE: 1-800-233-3497                                                                         mismanagement.




           We’re on the
          Web! Check the
          NRC Web site!


      OIG Hotline on the NRC Web Site
      When you make a complaint to the Hotline via the Internet, the following is an example of
      the header of the E-mail that we receive:
      From:                 nobody@nrc.gov
      To:                   <oighotline@nrc.gov>
      Date:                 Thu, Nov 14, 2002 11:10 AM
      Subject:              Response from “Contact the OIG Hotline staff”
      The following information was submitted by
      () on Thursday, November 14, 2002 at 11:09:45
      --------------------------------------------------------------------
      recipient_displayed_as: Web Site Category


      Complaint:_________________________________________


      OIG does not try to find out where the complaint came from or who made the complaint. The
      main purpose for incorporating this feature on the NRC Web site was to make employees feel
      more comfortable in bringing their concerns to OIG.
